OFFICE OF INSPECTOR GENERAL
 For the Millennium Challenge Corporation




AUDIT OF THE MILLENNIUM
CHALLENGE CORPORATION’S
REGIONAL INFRASTRUCTURE
REHABILITATION PROJECT IN
GEORGIA
AUDIT REPORT NO. M-000-09-007-P
September 30, 2009




WASHINGTON, DC
Office of Inspector G


Office of Inspector General
Millennium Challenge Corporation



September 30, 2009

Mr. Darius Mans
Acting Chief Executive Officer
Millennium Challenge Corporation
875 Fifteenth Street, N.W.
Washington, DC 20005

Dear Mr. Mans:

This letter transmits the Office of the Inspector General’s final report on the Audit of the
Millennium Challenge Corporation’s Regional Infrastructure Rehabilitation Project in Georgia. In
finalizing the report we considered your written comments to our draft report and included those
comments in their entirety in Appendix II of this report.

The report contained three audit recommendations for corrective action. As a result of MCC’s
response to the draft report, we have withdrawn the issue related to recommendation number 2
and renumbered the recommendations. Further, we revised recommendation number 3. We
have determined that management decisions have not been reached on recommendations 1, 2
and 3. Please provide my office written notice within 30 days of any additional information
related to the actions planned or taken to implement recommendations 1, 2 and 3.


I appreciate the cooperation and courtesy extended to my staff during this audit.


Sincerely,


Alvin A. Brown /s/
Assistant Inspector General
Millennium Challenge Corporation




Millennium Challenge Corporation
1401 H. Street N.W. Suite 770
Washington, DC 20005
www.usaid.gov/oig
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 3

Audit Objective .................................................................................................................. 4

Audit Findings ................................................................................................................. 5

Is the Millennium Challenge Corporation’s
Regional Infrastructure Rehabilitation Project
in Georgia achieving its intended results? ........................................................................ 5

           Road Construction Activities are
           Behind Schedule Which Could
           Result in Not Achieving Intended
           Results .................................................................................................................. 8

           Lack of Documentation to Support Advance
           Payment of $6.5 Million Used for Mobilization .................................................... 12

Other Issues

           Contractor Did Not Comply
           with Environmental Requirements....................................................................... 15

Evaluation of Management Comments ....................................................................... 17

Appendix I – Scope and Methodology ........................................................................ 20

Appendix II – Management Comments ....................................................................... 22

Appendix III – Projects as a Result of the Additional Funding ................................. 26

Appendix IV – Map of Road Project............................................................................. 27
SUMMARY OF RESULTS
In September 2005, the Millennium Challenge Corporation (MCC) signed a 5-year,
$295.3 million compact 1 with the Government of Georgia to improve the two main
barriers to economic growth -- a lack of reliable infrastructure and the slow development
of businesses, particularly agribusiness. The MCC compact in Georgia entered into force
in April 2006, formally initiating the 5-year timeline for project implementation and will
end in April 2011. In November 2008, MCC and the Georgian Government signed a
compact amendment making up to $100 million of additional funds available to the
Millennium Challenge Georgia Fund (MCG), thereby increasing the overall value of the
compact to $395.3 million. These funds will be used to complete works in the Samtskhe-
Javakheti Roads Rehabilitation, Regional Infrastructure Development, and Energy
Infrastructure Development Projects contemplated by the original compact. As of
August 2009, compact funds disbursed to date were $114.5 million (29 percent).

Based on an analysis of the three different projects (Samtskhe-Javakheti Roads
Rehabilitation, Regional Infrastructure Development, and Energy Infrastructure) under
the Regional Infrastructure Rehabilitation Project, the audit team elected to review only
the roads and regional infrastructure development projects. This audit was conducted to
determine whether the MCC’s Regional Infrastructure Rehabilitation Project in Georgia
was achieving its intended results. The MCC’s Regional Infrastructure Rehabilitation
Project in Georgia is partially achieving its intended results.

The Regional Infrastructure Development (RID) Project was aimed at
improving municipal service delivery. The Project provides grants to eligible government
entities (local self-government, municipal enterprise, and central government) for
infrastructure. As of June 30, 2009, $9.2 million of a total budget of $64.5 million had
been disbursed. The RID Project planned to rehabilitate water supply systems in the
cities of Poti, Kobuleti, Kutaisi, Bakuriani, and Borjomi. The audit found that it’s too early
to determine whether the RID project will achieve its intended results in Kobuleti,
Bakuriani, and Borjomi since rehabilitation works is ongoing, and is not scheduled to be
completed until the fourth quarter of 2010. However, the RID project is achieving its
intended results of rehabilitating water supply systems in Poti, and Kutaisi 2 . For
example, the mayor of Poti noted the city once received water every 2 days or 5 to 6
hours a day (such as in the high-rise apartments) but now the city has water 24 hours a
day. The mayor of Kutaisi noted that before MCC assistance, the city did not have a
proper water supply. During a site visit, the audit team noted that pipes were being laid
and connected to individual homes. As of August, 2009, the most recent status report
noted that the city water supply network rehabilitation works are ongoing according to
the schedule.

The Samtskhe-Javakheti Road Rehabilitation Project (the Road Project) aimed at
restoring the road and transport network in the region. With a total budget of
$183.6 million, the project plans to rehabilitate the 223.9-kilometer (km) road in Kvemo
1
  A compact is a multiyear agreement between MCC and an eligible country to fund specific
programs targeted at reducing poverty and stimulating economic growth.
2
  The municipal water projects in Poti, Kutaisi, and Borjomi are being co-funded through other
groups such as the European Bank for Reconstruction and Development (ERBD) and the
Swedish International Development Cooperation Agency (SIDA).


                                                                                            1
Kartli and Samtskhe-Javakheti regions. Rehabilitation of roads in these regions will
facilitate the trade and business development. Through May 31, 2009, MCC had
disbursed $23.7 million (12.9 percent) of the compact funds for the Road Project.
However, the Road Project may not achieve its intended results of fostering economic
development in the Samtskhe-Javakheti area as a result of the poor performance of a
major contractor responsible for 50 percent of the Road Project. The contractor had only
completed 13.8 percent of road construction within a 12-month period and had about 13
months to complete almost 86 percent of the road projects. According to MCC, on July
2009, MCG, with MCC’s “no objection,” took action to remove from the contractor’s
contract one section of road and award it to another contractor in an attempt to have the
Road Project completed within the compact because the original contractor was behind
schedule to complete one of its three road sections (page 8). Also, the major contractor
had received an advance payment of $6.5 million for mobilization; however supporting
documentation on the use of these funds was not available in order to determine
whether the funds were not used for other purposes. The contractor still had not fully
mobilized a year after signing a contract with MCG (page 12).

The report includes three recommendations to MCC’s vice president of Compact
Implementation: (1) to develop and document a MCC/MCG action plan, which details
construction milestones and related activities that need to take place, to ensure the
Road Project is completed within the time period of the compact; (2) to have MCC
request that the Millennium Challenge Georgia Fund obtain from the initial advance the
amount of $2.3 million from the contractor, which would now be considered an
overpayment; and (3) that MCC have an audit conducted to determine how the advance
payment was used to cover the cost of mobilization.

Appendix II contains the management comments in their entirety. In its response, MCC
partially agreed with one of the four Recommendations in the draft report
(Recommendation No. 1), and disagreed with Recommendations 2, 3, and 4. The OIG
believes that Recommendation No’s 1 and 4 are still valid: MCC needs to develop and
document a MCC/MCG action plan, which details construction milestones and related
activities that need to take place, to ensure the Road Project is completed within the time
period of the compact. However, based on MCC’s response to Recommendation No. 2,
we have agreed to remove the issue of whether the major contractor met the financial
qualifications, renumbered the recommendations, and revised new Recommendation
No. 3 to state that an audit should be conducted to determine how the advance payment
was used to cover the cost of mobilization (pages 20-21).




                                                                                         2
BACKGROUND
Established in January 2004 by the Millennium Challenge Act of 2003, the Millennium
Challenge Corporation (MCC) is a U.S. Government corporation designed to work with
some of the poorest countries in the world. Based on its performance against MCC's 17
policy indicators, a country may become eligible to receive a compact, which is a 5-year
agreement between MCC and the country to fund specific programs and targeted at
reducing poverty and stimulating economic growth.

In September 2005, MCC signed a 5-year, $295.3 million compact with the Government
of Georgia to improve the two main barriers to economic growth: a lack of reliable
infrastructure and the slow development of businesses, particularly agribusiness (see
appendix III, Projects as a Result of Additional Funding). These two investments focus
on rehabilitating regional infrastructure and enterprise development to improve the lives
of the poor through improved access to jobs and markets, more reliable access to basic
services, and capital and technical assistance for enterprise development. The MCC
compact in Georgia entered into force 3 in April 2006, formally initiating the 5-year
timeline for project implementation.

In November 2008, MCC and the Georgian Government signed a compact amendment
making up to $100 million of additional funds available to the Millennium Challenge
Georgia Fund (MCG). These funds, which increased the compact to $395.3 million, will
be used to complete works in the Samtskhe-Javakheti Roads Rehabilitation, Regional
Infrastructure Development, and Energy Infrastructure Projects contemplated by the
original compact.

The Regional Infrastructure Rehabilitation Project of the compact totals $310.6 million and
includes the following three activities:

    •   Samtskhe-Javakheti Road Rehabilitation. The $183.6 million activity will fund
        rehabilitation and construction of approximately 224 kilometers (Km) of main road
        traversing the Samtskhe Javakheti region. (See appendix IV, Map of Road
        Project.)
    •   Energy Infrastructure. The $62.5 million activity will be used to rehabilitate the
        North-South Gas Pipeline that fuels electric power generation and provides heat
        to homes and businesses, and to further develop and implement the Georgian
        government's energy sector strategy.
    •   Regional Infrastructure Development. The $64.5 million activity will fund regional
        and municipal physical infrastructure for water supply, sanitation, irrigation,
        municipal gasification, roads, and solid waste in regions outside of Tbilisi.

In Georgia, 54 percent of the population living outside of its capital city, Tbilisi, lives in
poverty. By focusing on rehabilitating regional infrastructure and promoting private
sector development, the compact will directly benefit approximately a half-million
Georgians. In addition, over one quarter of the population of the country will receive


3
  According to MCC officials, entry into force is the point at which a binding commitment is
recognized and compact funds are obligated.


                                                                                            3
indirect benefits from the compact; for example, the reliable transmission of gas will
reduce environmental, health, and safety risks.

The Regional Infrastructure Rehabilitation Project enables agricultural and other
suppliers to more easily connect with consumers. The project will improve the lives of
the Georgian poor by helping them to integrate economically through improved access
to jobs and markets, and by providing more reliable access to basic services such as
heat and electricity.


AUDIT OBJECTIVE
The Office of the Assistant Inspector General for the MCC conducted this audit as a part
of its fiscal year 2008 audit plan. The objective of this audit was to answer the following
question:

   •   Is the Millennium Challenge Corporation’s Regional Infrastructure Rehabilitation
       Project in Georgia achieving its intended results?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                         4
AUDIT FINDINGS
Is   the    Millennium    Challenge   Corporation’s  Regional
Infrastructure Rehabilitation Project in Georgia achieving its
intended results?
The Millennium Challenge Corporation’s (MCC) Regional Infrastructure Rehabilitation
Project in Georgia is partially achieving its intended results. For example, the Regional
Infrastructure Development (RID) Project, whose aim is to improve municipal water
service delivery, is achieving its intended results of rehabilitating water supply systems
in two (Poti, and Kutaisi) of five cities. It is still too early to determine whether the RID
project will achieve its intended results in Kobuleti, Bakuriani, and Borjomi since
rehabilitation works are still ongoing and are not scheduled to be completed until the
fourth quarter of 2010. However, the Samtskhe-Javakheti Road Rehabilitation Project
(the Road Project) may not meet its intended results because the Road Project is
currently behind schedule due to several issues noted below. For example, one
contractor who is responsible for completing more than 50 percent of the total road
project has only completed about 13.8 percent of road construction within a 12-month
period (April 2008 to April 2009). Because the construction season lasts only 7 months
(April to October) of the year, this contractor has about 13 months to complete almost 86
percent of its road projects. As a result, economic development in the Samtskhe-
Javakheti area may not be realized.

Water Supply Rehabilitation

The audit found that the RID project was achieving its intended results of rehabilitating
municipal water supply systems in the cities noted above. The rehabilitation work
consisted mostly of constructing water pipelines and new chlorination plants,
rehabilitating reservoirs and pumping stations, establishing distribution networks, and
supplying and the installating water meters in households.




Photograph of new chlorination plant in Poti, Georgia, taken by OIG Auditor on June 1, 2009.




                                                                                               5
In Poti, the construction of the new water system at Grouli Spring Source has been
completed as well as the new chlorination plant. Households have received new water
meters and citizens are now receiving water 24 hours per day.




Photograph of Old Soviet Pumping Station in Kutaisi, Georgia, taken by OIG Auditor on June 2, 2009.


In Kutaisi, the city water supply network rehabilitation works are ongoing, with pipes
being laid and hooked up to households.

The audit team met with the mayors of Poti and Kutaisi. The mayor of Poti thanked MCC
for the water project and hoped MCC has more funds for other projects like the sewer
system and investments, and also stated that citizens are feeling the impact of the new
water system. They once received water every 2 days or 5 to 6 hours a day but now
they have water 24 hours a day. The mayor of Kutaisi thanked the United States for
assisting Georgia in improving the vital water supply infrastructure. According to the
mayor, under Soviet control, the Soviets could not create a proper water supply. Without
U.S. assistance, it would have remained a problem for many years.




                                                                                                      6
Photograph of new pipe being laid in Kutaisi, Georgia, taken by OIG Auditor on June 2, 2009.




Road Rehabilitation

The Samtskhe-Javakheti Road Rehabilitation Project (the Road Project) may not meet
its intended results because the Road Project is currently behind schedule due to
several issues. The audit found that the initial road design was flawed because it was
not physically validated before being finalized. The consulting firm responsible for the
road design was unable to actually visit the road during the winter months. This resulted
in the design not always corresponding with the existing cross sections and road
alignments. Also, the supervising engineer stated in May 2009 that the road design did
not show a former military facility near the Turkish border where the road was being
realigned to bypass protected trees.




Photograph of old Soviet tank buried in hillside near Turkish Border and town of Kartsakhi, Georgia, which
would be in the path of the planned road. Photograph taken by OIG Auditor on May 28, 2009.




                                                                                                        7
The supervising engineer believed that the road design could not be used 70 percent of
the time because of design problems. MCC did not agree with the supervising engineer’s
percentage rate, and thought the rate to be much lower.

Road Project procurements were delayed because the first set of bids were rejected for
being too high, and rebidding delayed the commencement of three sections of the road
projects by about 8 months. A contractor was finally awarded a contract for three road
sections on March 20, 2008, with a commencement date of April 2, 2008. According to
MCC, in July 2009, MCG, with MCC’s “no objection,” took action to remove from the
contractor’s contract one section of road and award it to another contractor in an attempt
to have the Road Project completed within the compact.

Initial weak oversight by the former project management consultant and supervisory
engineer team leaders resulted in actions not being taken to ensure that the Road
Project was on schedule for completion. MCG’s evaluations of the project management
consultant and supervisory engineer for the period March through December 2008
stated that improvement was needed on monitoring and supervising the project.

Finally, the contractor responsible for three sections of the Road Project received an
advance payment of $6.5 million that may not have been used entirely for mobilization.
As of April 2009, a year after the contractor been awarded the contract, the contractor
still had not fully mobilized. A lack of documentation to support the advance payment
may increase the risk that the advance payment could have been used for purposes
other than mobilization.

MCC and MCG have taken actions to resolve the issues. However, these actions may
not be enough to ensure the Road Project will be completed on schedule.

These issues will be further discussed below.

Road Construction Activities
Are Behind Schedule Which
Could Result in Not Achieving
Intended Results
 Summary: Road construction activities are behind schedule because a major
 contractor responsible for 50 percent of the Road Project completed only about 13.8
 percent of road construction within a 12-month period. With a road construction
 season of only 7 months, this contractor has about 13 months remaining to complete
 almost 86 percent of its road projects. The Conditions of Contract for Works of Civil
 Engineering Construction prepared by the Fédération Internationale des Ingénieurs
 Conseils (FIDIC), subclause 43.1, Time for Completion, states that the contractor shall
 complete section 1 in 24 months and sections 2 and 3 in 30 months from the
 commencement date. Subclause 46.1, Rate of Progress, states that if for any reason
 the rate of progress of work is too slow to comply with the Time for Completion sub-
 clause, the engineer shall notify the contractor who shall take the necessary steps to
 expedite progress to comply with the Time for Completion. Further, the initial road
 design was flawed because it was not physically validated before being finalized. In
 addition, road projects procurements were delayed because the first set of bids were
 rejected for being too high, and rebidding delayed the commencement of three


                                                                                        8
 sections of the road projects by about 8 months. Also, weak oversight by team leaders
 resulted in actions not being taken to ensure that the Road Project was on schedule
 for completion. Finally, poor performance by the contractor led to road construction
 being behind by as much as 4 months as of April 2009. As a result, if the Road
 Project is not completed, its intended results of fostering economic development in
 Georgia may not be achieved.


The compact with Georgia may not meet its intended results because the Road Project
is currently behind schedule due to:

   •   Poor Performance by a Major Contractor
   •   Initial Road Design Flawed
   •   Delayed Road Projects Procurements
   •   Weak Oversight by Team Leaders

Poor Performance by a Major Contractor

The supervisory engineer stated in its April 2009 report that due to the lack of proper
management ability, a major contractor cannot complete the work on one of its sections
by April 1, 2010, as per contract requirements. The project management consultant’s
April 2009 quarterly report also noted that the financial progress over the last three
months indicated an increasing delay, against the original forecast, of about 4 months.
According to the supervising engineer’s April 2009 quarterly report, the contractor had
completed only 13.8 percent of road construction (30.9 km out of 224 km) within 12
months (April 2008 to April 2009). The supervising engineer further noted that “Actual
progress of the works is substantially behind on [one section]. There is a lot of work to
be executed within 7 to 8 months in order to complete on time.” This contractor is
responsible for three sections (more than 50 percent) of the Road Project, and must
complete one section by April 1, 2010, and two sections by October 1, 2010. Due to a
construction season of only 7 months (April to October), this contractor has about 13
months to complete about 86 percent of its road sections.

According to the project management consultant’s quarterly report, this contractor’s
management of the project continues to be of concern. During the winter construction
break, activities should have concentrated on finalization of working drawings, including
identification and resolution of any problem areas. Additionally, planning for production
of construction materials, particularly crushed stone, had not taken place and the
primary crushing facility had not been established. Similarly, obtaining necessary
permits, the contractor’s responsibility, had not progressed. Further, the project
management consultant stated in its April 2009 quarterly report that “without effective
management and resourcing, it is unlikely that substantial completion of [one of the
sections] can be achieved by November 2009.” (Construction stops from November to
March due to severe winter conditions.)

FIDIC, subclause 43.1, Time for Completion, states that the contractor shall complete
section 1 in 24 months and sections 2 and 3 in 30 months from the commencement
date. Subclause 46.1, Rate of Progress, states that if for any reason the rate of
progress of work is, in the opinion of the engineer, too slow to comply with the Time for
Completion, the engineer shall notify the contractor who shall take the necessary steps,


                                                                                       9
subject to the engineer’s consent, to expedite progress so as to comply with the Time for
Completion. The contractor received letters in May and June 2009 from MCG, referred
to as Clause 46 Notices under the Conditions of the Contract, which questioned the
contractor’s ability to complete the road projects within the stated time period. A Clause
46 Notice could lead to the termination of the contract.

MCG was aware that the contractor was behind schedule as early as October 2008
when the project management consultant stated in a monthly report that the contractor
was about 3 months behind schedule. The first of three key team leaders was replaced
in February 2009, and the last team leader was replaced in June 2009 (as discussed
below in Weak Oversight by Team Leaders). In addition, MCG was aware that the
contractor was not fully mobilized as late as March 2009, which could be an indication
that the contractor was not prepared to meet the contract requirements. Despite the
contractor’s poor performance, the supervising engineer continued to certify and MCG
continued to pay the contractor for services rendered, totaling about $9.3 million as of
May 8, 2009. According to MCC, in July 2009, MCG, with MCC’s “no objection,” took
action to remove from the contractor’s contract one section of road and award it to
another contractor in an attempt to have the Road Project completed within the compact.


Initial Road Design Flawed

The supervising engineer’s quarterly report for January through March 2009 stated that
“there are plenty of road sections in which the original design was not always
corresponding with the actual condition situation.” For example, the original design did
not always correspond with the existing cross sections and road alignments. Also, the
supervising engineer stated in May 2009 that the road design did not show the military
facilities near the Turkish border where the road was being realigned to bypass
protected trees. The supervising engineer believed that the road design could not be
used 70 percent of the time because of problems with the design. However, an MCC
official indicated that the percentage was overstated. In addition, a MCC official stated
that MCG had hired consultants who provided faulty locations of utilities to the firm that
developed the road design. These faulty locations further created additional road design
flaws. As a result, new utility locations had to be identified before construction could
continue.
According to a MCC official, the design firm responsible for the Feasibility Study, the
Environmental Assessment Plan, the Resettlement Action Plan, and the evaluation of
bids could not start fieldwork for the road design because of the winter months. The
MCC official further stated that once the design firm started its fieldwork, it came under
pressure from MCG to meet deadlines and therefore did not have time to validate the
road design in the field. A consultant retained by MCC, the prior project management
consultant, and the prior supervising engineer all reviewed the road design and made
comments but their reviews were paper-based only. The MCC official acknowledged that
the firm should have physically validated the road design in the spring of 2007, which
would have eliminated some of the problems.

Delayed Road Projects Procurements

MCG posted its first bids for six road sections of the Road Project on April 23, 2007.
However, MCG rejected those bids for being too high and rebid on October 24, 2007. A


                                                                                       10
contractor was awarded a contract for three road sections on March 20, 2008, with a
commencement date of April 2, 2008. This rebidding delayed the commencement of
three sections of the road projects by about 8 months, based on a successful first bid in
April 2007 and a contractor’s commencement date of August 2007.

A contract was signed for two sections of the road project on May 14, 2008, with a
May 28, 2008, commencement date. Completion dates of the two road sections were
30 months after the commencement date. However, due to the difficulties with the
contractor’s original joint venture partner, another joint venture partner was assigned,
which resulted in no permanent works being performed during 2008. Contracts were
awarded for two sections on April 27, 2009, with completion dates of 18 months because
the sections were of shorter length than in the original tender. The remaining contract
was awarded for the last section on June 12, 2009, also with a completion date of 18
months because the road section was also a shorter length than in the original tender.

Weak Oversight by Team Leaders

The team leaders for the project management consultant, the supervising engineer, and
the contractor provided weak oversight of the Road Project. As a result of this weak
oversight, team leaders did not take actions to ensure that the Road Project was on
schedule. In an attempt to improve oversight, all of these team leaders were replaced.

The team leader for the project management consultant was hired in June 2007,
13 months after the compact’s entry into force. MCG’s evaluation of the project
management consultant for the period April through December 2008 stated that the
consultant needed improvement on monitoring the project in a timely manner. The
consultant also needed to improve supervising the work of the supervising engineer and
monitoring the work on construction contractors, including undertaking site visits. The
project management consultant’s team leader was replaced in May 2009, about 2 years
after being assigned to that position.

The team leader for the supervising engineer was hired in April 2008, at the onset of the
major contractor’s road contract. MCG’s evaluation of the supervising engineer for the
period March through December 2008 stated that the team leader was not an effective
manager and required “a much firmer attitude” toward construction contractors. The
team leader was also consistently reluctant to make any engineering design decisions.
The project management consultant stated in its October 2008 quarterly report that it
had written a letter to MCG on September 12, 2008, regarding the performance of the
supervising engineer. The project management consultant noted in the letter that the
engineer’s office in Tsalka was in pristine condition and gave no indication of use. This
office was expected to be the field staff’s central base. The supervising engineer’s team
leader was replaced in February 2009, about 10 months after being assigned to that
position.

The team leader for a major contractor provided weak oversight. MCG’s evaluation of
the contractor for the period March through December 2008 stated that the team leader
had some problems in management and with subcontractors. As early as July 2008, the
project management consultant discussed with MCG its concerns about the experience
of the contractor’s project management team, particularly the contractor’s failure to
appreciate the contract requirements. Further, the supervising engineer commented in



                                                                                      11
its April 2009 quarterly report on the contractor’s lack of proper management ability. The
supervising engineer requested in June 2009 that the contractor’s team leader be
replaced, about 14 months after the commencement date of the contract.

If the Road Project is not completed, its intended results of fostering economic
development through (1) increasing exports of agricultural products from the region; (2)
increasing social, political and economic integration of the local population with the rest
of Georgia; (3) expanding international trade; (4) developing the tourism potential of
Vardzia, a World Heritage site; and (5) complementing other road development projects
may not be achieved.

To move the Road Project toward completion, this recommendation addresses the road
construction being behind schedule rather than each individual cause.

   Recommendation No. 1: We recommend that the Millennium Challenge
   Corporation's vice president for Compact Implementation develop and document
   a Millennium Challenge Corporation/Millennium Challenge Georgia Fund action
   plan, which lays out construction milestones and related activities that need to
   take place, to ensure the Samtskhe-Javakheti Road Rehabilitation Project is
   completed within the time period of the compact.


Lack of Documentation to Support
Advance Payment of $6.5 million
Used for Mobilization
 Summary: The contractor responsible for three sections of the Road Project received
 an advance payment of $6.5 million that may not have been used for mobilization.
 The Bidding Document Volume II, for the Road Project, issued on October 24, 2007,
 for the Road Project states that MCG shall make an advance payment to the
 contractor. The supervising engineer certifies that the contractor has received an
 unconditional bank guarantee in written form and by a bank acceptable to MCG in an
 amount equal to the advance payment. The bank guarantee indicates the bank will
 pay in the event that the contractor used the advance payment for purposes other
 than the costs of mobilization. Documentation could not be provided to support the
 amount of funds used for mobilization. As of April 2009, a year after the contractor had
 signed a contract with MCG, the contractor still had not fully mobilized. As a result,
 the lack of documentation to support the advance payment increases the risk that the
 advance payment could be used for purposes other than mobilization.

The contractor received an advance payment of $6.5 million (10 percent of the contract
price) on April 23, 2008, about 1 month after it signed a contract with MCG to rehabilitate
three sections for the Road Project. On May 1, 2008, the contractor submitted an
invoice, with supporting documentation (bank guarantee), requesting the advance. This
advance payment was to be used for mobilization, which consists of the preparation for
works and operations and can include the movement of personnel, equipment, and
supplies to the project site. To receive the advance payment, the contractor must submit
an unconditional bank guarantee in writing.

The contractor submitted the required bank guarantee, dated April 16, 2008. According



                                                                                        12
to the guarantee, the bank stated “At the request of the contractor, we … hereby
irrevocably undertake to pay you any sum or sums not exceeding in total an amount of
USD$6,546,753 upon receipt by us or your first demand stating that the contractor is in
breach of its obligation under the contract because the contractor used the advance
payment for purposes other than the costs of mobilization in respect of the works.”

The contractor may not have used the advance payment for mobilization. The
supervising engineer’s quarterly report for January through March 2009, dated April
2009, stated that the contractor’s mobilization was not complete. For example, the
facilitation of the laboratory in Tsalka was still under progress by the end of March 2009,
and bigger crushing plants and concrete plants were not operational. This was about 1
year after receiving the advance payment. Although the contractor had increased the
number of engineers and other employees at the site, the supervising engineer noted
that the nonpresence of senior management personnel reduced the contractor’s capacity
to produce plans and drawings for approval.                Additionally, a software project
spreadsheet provided by the supervising engineer, during the audit, on the status of the
contractor’s projects indicated that for all three sections, the contractor had only
completed about 13 percent of its portion of the road project.

The project management consultant, the supervising engineer, and MCG were not able
to provide documentation establishing what had been spent by the contractor on
mobilization. A lack of documentation was also noted during a review of the contractor’s
invoices. For example, several e-mails between the prior project management
consultant’s team leader and the prior supervising engineer’s team leader related to a
lack of supporting information for some earthwork items lacking volume calculations.
According to one e-mail, “Earthworks represents 65% of the total contract price and it is
clearly essential to provide full supporting documentation as early as possible.” In
addition, an audit conducted by a major accounting firm for the period July 1 through
December 31, 2008, identified the lack of supporting documentation as a material
weakness. The e-mail from the project management consultant’s team leader, dated
December 11, 2008, indicated that the team leader had expressed concern to the
supervising engineer’s team leader on many occasions concerning supporting
documentation for the contractor’s invoices.

The audit team spoke with an official with the Maryland State Highway Administration
that we contacted made the following statement when questioned about a contractor
spending over a year to mobilize: “I would anticipate that actions would have been taken
by the administrating office to alert the contractor of non performance and/or stop
payment and/or notify the bonding company.”

Under Bidding Document Volume I, issued on October 24, 2007, for the Samtskhe-
Javakheti Roads Rehabilitation Project, Contract No. Four - Lots 1-6, Section IV, Part II:
Conditions of Particular Application (COPA), sub-clause 60.7, Advance Payment, states
that MCG shall make an advance payment to the contractor. The advance payment will
be made after the supervising engineer certifies that the contractor has received an
unconditional bank guarantee in written form and by a bank acceptable to MCG in an
amount equal to the advance payment. MCC will retain the right to approve the form and
substance of the bank guarantee. Further, according to the bidding document, Item 101,
Contractor’s Mobilization and Site Installation, “This item shall consist of preparatory
works and operations, including but not limited to, those necessary for the movement of
personnel, equipment, supplies and incidentals to the Project site; for the establishment


                                                                                        13
of all contractor’s offices and buildings or other facilities necessary for work on the
project, including removal after completion of the works.”

There was an apparent lack of internal control processes and policies related to
supporting documentation regarding the expenses involving advance payments;
specifically, when the contractor fails to use advance payments in a timely manner.
Without a clear understanding of what has been spent on mobilization, MCC and MCG
would be unable to provide supporting documentation to the bank reflecting that the
contractor was in breach of its obligation under the contract because the contractor used
the advance payment for purposes other than the costs of mobilization in respect to
construction works.

MCC stated the following:

       “Advance payments are provided to enable a contractor to cover cash
       flow requirements (i.e., the lag between incurring costs and getting paid
       for them) during mobilization and the early phases of a project. These
       costs are much higher and extend beyond the items covered in Bill Item
       101: Contractor’s Mobilization and Site Installation.

       Advance payments are secured against a bank payment guarantee and
       do not normally require backup as to what they are being expended for.
       In addition, the contract provides for amortization of the advance payment
       against future invoices for works completed. Calling an advance payment
       guarantee would be justified if, for example, a contractor were to fail to
       mobilize and start work on a project, which is not the case with [this
       contractor].

       The issue of documentation of interim payments raised by [the accounting
       firm] has been addressed by MCG in a separate document. Regarding
       [the contractor’s] poor performance, today, MCG as Employer and [the
       supervising engineer] under the construction contract are taking
       measures to rectify the situation. Following the issuance of a series of
       formal contractual notices (the Clause 46 Notices referred to on page 10),
       MCG is in the process of removing [one section from the contractor’s]
       contract, and warning the firm that additional measures would be taken if
       its performance on [two other sections] does not improve within a month.”

Since the advance payment was based on 10 percent of the contractor’s contract price
(about $6.5 million) for three sections, then MCG should recover about $2.3 million from
the contractor, the advance payment received for that section. Also, because the
contractor has a record of poor performance and has not fully mobilized in more than a
year, MCC should recover the amount of funds initially provided for mobilization.

In its response to the draft report, MCC stated, “At the time of the removal of one lot (out
of a total of three) from the construction contract, MCG negotiated a settlement with the
contractor. In exchange, the contractor agreed to vacate the removed section and to
enter into a release where under it released MCG and others from any and all claims
and actions related to the removed section. Reduction of the amount of the advance
payment already paid was not part of the settlement.” Further, MCC stated that “the
contractor provided a reference letter from its bank that the contractor’s parent could


                                                                                         14
raise $15 million for the cash requirements of the roads project. The contractor could
have accessed the funds referenced in the letter either directly or through its parent. If
such is true, then an advance payment for cash flow support would not be needed”.
Since MCG negotiated a settlement with the contractor which would impact our
Recommendation concerning the return of any additional funds provided for mobilization,
and since the OIG still believes that an audit should be conducted, we are revising
Recommendation No. 3 to determine how the advance payment was used to cover the
cost of mobilization

   Recommendation No. 2: We recommend that the Millennium Challenge
   Corporation's vice president for Compact Implementation request that the
   Millennium Challenge Georgia Fund obtain from the contractor from the initial
   advance, the amount of $2,316,824.27, which would now be considered an
   overpayment on the section.

   Recommendation No. 3: We also recommend that the Millennium Challenge
   Corporation's vice president of Compact Implementation have an audit
   conducted to determine how the advance payment was used to cover the cost of
   mobilization.


Other Issues

The OIG noted one other issue during its fieldwork related to a report issued by a MCC
contractor hired to review the environmental compliance of one of the contractors.
Although the audit team did not verify the issues noted while on site, they did discuss
these issues with MCC officials in headquarters to determine the actions taken by the
MCC and the MCG to address the issues noted by the contractor. Further, this audit
includes this issue because the contractor who failed to comply with environmental
requirements was the same contractor responsible for a most of the Road Project.

Contractor Did Not Comply
With Environmental Requirements

One of the three contractors working on the Road Project was not in compliance with the
environmental requirements of its contract with MCG. A firm hired by MCC that
specialized in environmental planning and assessment stated in its first field mission
report, dated November 20, 2008, that the clearing contractor removed a number of
protected species, Taxus Baccata, which were identified in both the Environmental
Impact Assessment (EIA) study and the Environmental Management Plan (EMP).
Further, the firm noted the following in its February 2009 report: (1) the contractor
improperly handled and stored oil and lubricants at one of its camps, and no drip trays or
secondary containments were available; (2) the volume of the secondary containment of
the diesel tank at another camp was too small and did not comply with the Pollution
Prevention Plan; and (3) water from the vehicle washing facility at another camp flowed
untreated into the ditch and away from the camp site.

Subclause 5.3 of the contract states that the contractor and subcontractors shall comply
with MCC’s Environmental Guidelines. Sub-clause 19.1 of the contract Safety, Security,


                                                                                       15
and Protection of the Environment, states the contractor must apply the
recommendations of the project’s EIA study and the EMP. Based on the firm’s reports,
as a result of the contractor not complying with the environmental requirements, there is
an increased risk of even greater environmental issues.

According to MCC, MCG has made significant improvements, including:

   •   Replacing the team leaders of the project management consultant and the
       supervisory engineer;
   •   Requesting changes in the management at the contractor;
   •   Increasing staffing of the supervisory engineer and contractor;
   •   Requiring improvements in environmental oversight by the supervisory engineer
       and the project management consultant, which resulted in the issuance of
       citations and withholding of payment for environmental management and
       mitigation measures; and
   •   Requesting that the pre-construction survey be completed before significant
       actions are taken, and the survey is now underway.

In addition, MCG has been fully engaged and proactive it identifying and managing
specific environmental compliance issues. For example, during the initial clearing of the
contractor’s section of the road, a total of four protected Yew trees were cut by the
contractor’s clearing subcontractor. The contractor was fined by the Ministry of the
Environment (MOE). Additionally, in order to remedy the tree issue and avoid further
adverse impacts, MCG established a group of specialists, including MCG, the designer,
the construction contractor, the National Park Authority, MOE, geographical information
system (GIS) specialists, and biologists. They took the following actions:

   •   Reviewed the legal situation;
   •   Studied the potentially affected area in detail by preparing accurate GIS maps of
       boundaries of the road and property and identification of protected species;
   •   Demarcated the southern border of the Algeti National Park in areas where the
       existing road is either close to or cuts into the park for several meters;
   •   Reviewed the road delineation and design in order to avoid any damage; and
   •   Revised the contractor’s environmental management plan to identify critical
       areas and the necessary monitoring and mitigation requirements.

Based on the actions taken by MCG and MCC, this audit is not making a
recommendation.




                                                                                      16
EVALUATION OF
MANAGEMENT COMMENTS
The MCC provided written comments to our draft report that are included in their entirety
in Appendix II. In its response, MCC, partially agreed with the first recommendation, but
disagreed with the remaining three recommendations.
Recommendation No. 1 in the draft report we recommended that MCC develop and
document an action plan, which lays out construction milestones and related activities
that need to take place, to ensure the Samtskhe-Javakheti Road Rehabilitation Project is
completed within the time period of the compact. MCC partially concurs with this
recommendation. According to MCC, it and the Millennium Challenge Georgia Fund
(MCG) have taken steps to remedy this poor performance including (i) threatening to
terminate the underperforming contractor’s contract, (ii) removing one of the lots from
this contractor’s contract, (iii) replacing the team leader of the project management
consultant, and (iv) replacing key and support staff of the engineer. In addition, MCC
stated that MCG and the engineer have increased their monitoring of construction
activities with greater site visits and more frequent progress reports. At the end of this
construction season, MCC stated that it and MCG will assess progress and determine
what steps will be necessary to ensure completion within the term of the Compact. MCC
stated that the delays on the Samtskhe-Javakheti Road Rehabilitation Project are not
due to a lack of an action plan but rather poor performance. It is for this poor
performance reason that we made the recommendation for MCC to develop and
document a Millennium Challenge Corporation/Millennium Challenge Georgia Fund
action plan, which lays out construction milestones and related activities that need to
take place, to ensure the Samtskhe-Javakheti Road Rehabilitation Project is completed
within the time period of the compact. We agree that both the MCC and MCG have
taken steps to ensure completion of the project. It is the steps that MCC and MCG plan
to take at the end of this construction season that we want MCC and MCG to develop
and document in an action plan that will ensure completion of the road project within the
term of the Compact. It would appear that is what MCC and MCG intend on doing.
However, until an action plan is provided to us, a management decision has not been
reached.

Recommendation No. 2 in the draft report we recommended that MCC develop and
implement procedures for providing technical evaluation panels the guidance for
determining financial or technical qualifications of a perspective contractor. MCC
disagrees with this recommendation. MCC stated that this guidance is already provided
by MCC in the Program Procurement Guidelines, which are periodically reviewed and
revised accordingly. MCC stated that the OIG makes this recommendation based on its
conclusion that Ashtrom International Ltd. (“Ashtrom International”), a bidder on roads
works, was not a qualified bidder based on certain financial requirements. MCC believes
that the process followed by MCG in assessing the financial qualification of Ashtrom
International was correct and reasonable. In addition, MCC stated that it believes that
Ashtrom International was a qualified bidder. However, most of the MCC discussion
focused on the Contractor’s potential ability to rely on its parent or subsidiary companies
financials to meet the financial qualifications. The OIG is still concerned that without an



                                                                                        17
agreement between the contractor and its parent related to the ability of the contractor to
obtain funding as needed, the contractor may not have met the financial qualifications.
However, the OIG does agree that the evaluation committee conducted an appropriate
financial review. Since this was the only instance where it appeared a contractor may not
have met the financial qualifications, and the evaluation committee did conduct an
appropriate review, we have removed this issue from the body of the report.

Recommendation No. 3 in the draft report (Recommendation No. 2 in this final report)
we recommended that MCC request that the Millennium Challenge Georgia Fund obtain
from the contractor from the initial advance, the amount of $2,316,824.27, which would
now be considered an overpayment on the section. MCC disagreed with the
recommendation. MCC stated that OIG makes this recommendation based on their
finding that the contractor responsible for three sections of the road project received an
advance payment of $6.5 million that may not have been used for mobilization.
According to MCC, the amount listed in the recommendation is the portion attributable to
the lot removed from the contract. At the time of the removal of one lot (out of a total of
three) from the construction contract, MCG negotiated a settlement with the contractor.
MCG removed a lot from the contract, reduced the dollar value of the contract, revised
certain rates in the bill of quantities, agreed the amount of the retention to be returned to
the contractor at the time of taking over, and reduced the value of the performance
security required. According to MCC, in exchange, the contractor agreed to vacate the
removed section and to enter into a release where under it released MCG and others
from any and all claims and actions related to the removed section. Reduction of the
amount of the advance payment already paid was not part of the settlement. The OIG
was not aware of any negotiated settlement until our exit conference with MCC. At such
time the OIG requested a copy of the settlement, and based on our review of the
settlement, the OIG would consider deleting this recommendation. However, MCC did
not provide a copy of the settlement along with their response. As a result, the OIG is
retaining the recommendation, and does not consider that a management decision has
been reached on this recommendation. We will await a copy of the negotiated settlement
in order to determine if a management decision has been reached.

Recommendation No. 4 in the draft report (Recommendation No. 3 in this final report)
recommended that MCC have an audit conducted to determine the amount of additional
funds initially provided for mobilization, which should be returned. MCC disagrees with
this recommendation. According to MCC advance payments are provided to contractors
for two purposes -- to cover the cost of mobilization and for cash flow support. The
second of the two purposes is to enable a contractor to cover cash flow requirements
(i.e., the lag between incurring costs and getting paid for them) during the early phases
of a project. Further, advance payments are secured against a bank payment guarantee.
In addition, the advance payment is disbursed only after the contractor has provided a
performance security as well. In addition, MCC stated that advance payments do not
normally require backup as to what they are being expended for. In fact, the generally
accepted international form of construction contract does not require an accounting of
the proceeds of the advance payment made to contractors. MCC believes it should
continue to follow generally accepted industry practice in this regard. In MCC’s response
to whether the contractor met the financial qualifications, MCC stated that the contractor
provided a reference letter from its bank that the contractor’s parent could raise $15
million for the cash requirements of the roads project. According to MCC, the contractor
could have accessed the funds referenced in the letter either directly or through its


                                                                                          18
parent. The OIG believes that if such is true, then an advance payment for cash flow
support would not be needed. Further, the language in the bank guarantee letter states,
“that the contractor is in breach of its obligation under the contract because the
contractor used the advance payment for purposes other than the costs of Mobilization
in respect of the works.” Further, the OIG believes that there is an increased risk that
funds provided to the contractor under the advance payment may have been used for
purposes other than mobilization since mobilization was slow. Therefore, the OIG
believes that an audit should be conducted to determine how the advance payment was
used to cover the cost of mobilization. Because the OIG did not agree with MCC’s
response, a management decision was not reached.




                                                                                     19
                                                                              APPENDIX I




SCOPE AND METHODOLOGY
Scope
The Office of Inspector General conducted this performance audit of the Millennium
Challenge Corporation’s (MCC) program in Georgia in accordance with generally
accepted Government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objective(s). We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objective. The audit reviewed the projects from the April 7, 2006, the entry-
into-force date, to August 19, 2009. Through August 2009, MCC had disbursed
$114.5 million of the compact funds out of the total $395.3 million. From a total of
$183.62 million for the Road Project, $23.7 million had been disbursed through May 31,
2009. From a total of $64.5 million for the Regional Infrastructure Development Project,
$9.2 million has been disbursed through June 30, 2009.

We conducted the audit at MCC headquarters in Washington, DC, and at Millennium
Challenge Georgia (MCG) in Tbilisi, during a site visit from May 18 through June 5,
2009. During the site visit, we interviewed various beneficiaries in Poti and Kutaisi who
received the benefits from a new rehabilitated water supply system. We also met with
the supervising engineer and project management consultant along with the contractors
for the roads and bridges, and visited two of the three road project sites. Our audit work
represented 62.7 percent of the total compact funding.

To reach our conclusions regarding MCG’s Regional Infrastructure Development and
Samtskhe-Javakheti Road Rehabilitation Projects, we relied on interviews with MCC
staff, MCG staff, contractors, and implementing entities. We used these interviews to
help assess the program’s work plans, financial reports, quarterly progress reports, and
the monitoring and evaluation plan. We also examined supporting documentation from
the contractor’s and implementing entities’ reports and MCG quarterly progress reports.

We examined the internal control environment by identifying and assessing the relevant
controls. We tested for various controls, including supporting documentation, verification
procedures, and guidance. In addition, we reviewed prior audit reports and considered
relevant findings.

We also depended on the work of a firm hired by MCC that specialized in environmental
planning and assessment.

Methodology
To answer the audit objective, audit steps were established to determine the following:

   •   Whether MCG had established plans and milestones to monitor and implement
       the compact’s projects, and




                                                                                          20
                                                                              APPENDIX I


   •   Whether the program was on schedule according to the established plan and
       milestones.

   •   Based on an analysis of the three different projects (Samtskhe-Javakheti Roads
       Rehabilitation, Regional Infrastructure Development, and Energy Infrastructure)
       under the Regional Infrastructure Rehabilitation Project, the audit team elected to
       review only the roads and regional infrastructure development projects.

Specifically, we performed the following activities:

   •   Interviewed MCC personnel, MCG staff, and implementing partners to gain an
       understanding of the overall objectives of the program and its challenges.

   •   Conducted a detailed examination of supporting documentation for the two
       projects we reviewed to verify that intended results were being achieved. The
       examination consisted of reviewing relevant documentation, conducting
       interviews, and making site visits.

   •   Interviewed beneficiaries to determine how MCC-funded programs had affected
       their lives.

   •   Determined the potential impact of achieving or not achieving selected
       milestones and targets.




                                                                                       21
                                                                              APPENDIX II




 MANAGEMENT COMMENTS




DATE:          September 24, 2009

TO:            Alvin Brown
               Assistant Inspector General for the Millennium Challenge Corporation

FROM:          Michael Casella
               Acting Vice President for Administration and Finance,
               Millennium Challenge Corporation /s/

SUBJECT:     MCC Management Response to the Draft Report of the Audit of the
Millennium Challenge Corporation’s Regional Infrastructure Rehabilitation Project in
Georgia

The MCC appreciates the opportunity to respond to the draft report on the Audit of the
Millennium Challenge Corporation’s Regional Infrastructure Rehabilitation Project in
Georgia.

Recommendation No. 1: We recommend that the Millennium Challenge
Corporation’s Vice President for Compact Implementation develop and document
a Millennium Challenge Corporation/Millennium Challenge Georgia Fund action
plan, which lays out construction milestones and related activities that need to
take place, to ensure the Samtskhe-Javakheti Road Rehabilitation Project is
completed within the time period of the Compact.

MCC partially concurs with this recommendation. MCC recognizes the importance of an
action plan to ensure timely completion, but the delays on the Samtskhe-Javakheti Road
Rehabilitation Project (SJRRP) are not due to a lack of an action plan but rather poor
performance. MCC and the Millennium Challenge Georgia Fund (MCG) have taken
steps to remedy this poor performance including (i) threatening to terminate the
underperforming contractor’s contract, (ii) removing one of the lots from this contractor’s
contract, (iii) replacing the team leader of the project management consultant, and (iv)
replacing key and support staff of the engineer. In addition, MCG and the engineer have
increased their monitoring of construction activities with greater site visits and more
frequent progress reports. At the end of this construction season, MCC and MCG will
assess progress and determine what steps will be necessary to ensure completion
within the term of the Compact.




                                                                                         22
                                                                                              APPENDIX II




Recommendation No. 2: We recommend that the Millennium Challenge
Corporation’s Vice President for Compact Development develop and implement
procedures for providing technical evaluation panels the guidance for determining
financial or technical qualifications of a perspective contractor.

MCC disagrees with this recommendation. This guidance is already provided by MCC in
the Program Procurement Guidelines, which are periodically reviewed and revised
accordingly. OIG makes this recommendation based on its conclusion that Ashtrom
International Ltd. (“Ashtrom International”), a bidder on roads works, was not a qualified
bidder based on certain financial requirements. MCC believes that the process followed
by MCG in assessing the financial qualification of Ashtrom International was correct and
reasonable. In addition, we believe that Ashtrom International was a qualified bidder.

MCG created a technical evaluation panel to review bids on sections of the Roads
project. Although the panel was highly qualified in construction matters, it did not
consider itself sufficiently qualified to assess the financial qualification of the prospective
bidders. The panel, therefore, requested the expert opinion of MCG’s fiscal agent on
such qualifications. GFA Consulting Group GMBH acts as MCG’s fiscal agent and is an
internationally-recognized consultant in financial systems and administration. MCC
believes that the evaluation panel acted reasonably and prudently in securing the expert
opinion of a qualified consultant on the financial qualification of prospective bidders. In
reviewing the findings of the evaluation panel, MCC found nothing that suggested
Ashtrom International was not a qualified bidder.

OIG makes three arguments why Ashtrom International was not qualified: (1) that its
financial statements omitted a statement of cash flows, (ii) that it was not financially
sound as evidenced by its current assets/current liabilities quick ratio and (iii) that it did
not have sufficient sources of financing available to meet cash flow demands of the
construction contracts.

No qualification criteria require a statement of cash flows. One qualification criteria
(Criteria 3.1) is that prospective bidders submit audited balance sheets for the last five
years. 4 Bidders also fill out Form FIN–1, which asks for balance sheet and income
statement information for all prospective bidders. To support such data, prospective
bidders were requested to attach “copies of financial statements (balance sheets,
including all related notes, and income statements) for the last five years.” The
qualification criteria make no mention of a statement of cash flows. 5 To qualify, Ashtrom
4
  See Section III, Qualification Criteria, Sub-Factor 3.1.
5
  As a matter of historic interest, Ashtrom International did not include the cash flow statements because
they were not then required by Israeli accounting rules. Ashtrom is subject to the requirements of the Israel
Accounting Standards Board (“IASB”), not US GAAP. The IASB did not adopt International Financial
Reporting Standards (IFRS) until July 2006 – after the date of all financial statements submitted in support
of Ashtrom International’s bid. The statement in the auditors’ reports that Ashtrom International’s
financial statements did not include a statement of cash flow as required by GAAP was simply a statement
of fact, not an indication that the financial statements failed to satisfy the then-current requirements. The
importance of recognizing the national financial reporting variations is reflected in Sub-Factor 3.1 which
permitted prospective bidders to provide other financial statements if an audited balance sheet were “not


                                                                                                         23
                                                                                           APPENDIX II


International simply had to provide audited balance sheets and statements of income,
which it did.

The same qualification criteria goes on to require that the provided balance sheets must
“demonstrate the current soundness of the bidder’s financial position”. OIG agrees with
GFA Consulting that a quick ratio is a reasonable index of such soundness. OIG
suggests that GFA incorrectly calculated the quick ratios for Ashtrom International
because it used the consolidated statements rather than the statements of the company
by itself. According to OIG, such an approach was an error because the consolidated
statements included Ashtrom International’s parent company. In fact, the consolidated
statements do not include Ashtrom International’s parent but instead include its
subsidiaries. This is made clear in Note 2 to the financial statements: “The consolidated
financial statements include the accounts of companies over which the Company
exercises control.” GFA Consulting correctly calculated the quick ratios and did not
include the financial position of Ashtrom International’s parent company. 6 Such ratios
were well above 1.00, which OIG admits were “good”.

The final qualification criteria at issue (Criteria 3.3) requires that the bidder “demonstrate
access to, or availability of, financial resources” necessary to meet $15 million in cash
flow requirements. 7 Ashtrom International provided a reference letter from Bank
Hapoalim that Ashtrom Group could raise $15 million for the cash requirements of the
roads project. OIG points to an ambiguity in the letter about whether Ashtrom Group
was a subsidiary of Ashtrom International or vice versa and points to Form FIN-1, which
requires financial statements to exclude parent companies. Form FIN-1, however, is
used for Criteria 3.1 and has no bearing on Criteria 3.3. The correct form for Criteria 3.3
is Form FIN-3, which includes no language that excludes the resources of a parent
company. The language is very broad, permitting a letter of credit or “other financial
means”. Ashtrom International could have accessed the funds referenced in the letter
either directly or through its parent. GFA Consulting correctly concluded that Ashtrom
International had adequate financial resources available to it for the project. 8


Recommendation No. 3: We recommend that the Millennium Challenge
Corporation’s Vice President for Compact Implementation request that the
Millennium Challenge Georgia Fund obtain from the contractor from the initial
advance, the amount of $2,316,824.27.

MCC disagrees with this recommendation.

OIG makes this recommendation based on their finding that the contractor responsible
for three sections of the road project received an advance payment of $6.5 million that

required by the law of the bidder’s country”.
6
   Note 9 of the 2006 Financial Statements describe many of Ashtrom International’s subsidiaries.
Confusion may stem from the use of the term “Group” in Note 2. “Group” refers to the consolidated group
– Ashtrom International and the companies it controls. Ashtrom International’s parent is named Ashtrom
Group Ltd. However, as Note 1 to the financial statements makes clear, the defined term for Ashtrom
Group Ltd. is “the parent company” and not “Group”.
7
  See Section III, Qualification Criteria, Sub-Factor 3.3.
8
  Ashtrom International’s financial statements for 2008 do include a statement of cash flows and show that
Ashtrom International (independent of Ashtrom Group) had a cash balance of $18.6 million as of
December 31, 2007 – indicating it could have satisfied Criteria 3.3 with its own cash resources.


                                                                                                      24
                                                                               APPENDIX II


may not have been used for mobilization. The amount listed in the recommendation is
the portion attributable to the lot removed from the contract. At the time of the removal
of one lot (out of a total of three) from the construction contract, MCG negotiated a
settlement with the contractor. MCG removed a lot from the contract, reduced the dollar
value of the contract, revised certain rates in the bill of quantities, agreed the amount of
the retention to be returned to the contractor at the time of taking over, and reduced the
value of the performance security required. In exchange, the contractor agreed to
vacate the removed section and to enter into a release where under it released MCG
and others from any and all claims and actions related to the removed section.
Reduction of the amount of the advance payment already paid was not part of the
settlement.

OIG does not consider the settlement as a whole. To focus on one element of the
settlement and request return of the advance payment is a misunderstanding of the
nature of the settlement and would not be in keeping with the agreement that has been
executed.


Recommendation No. 4: We recommend that the Millennium Challenge
Corporation’s Vice President of Compact Implementation have an audit conducted
to determine the amount of additional funds initially provided for mobilization,
which should be returned.

MCC disagrees with this recommendation.

Advance payments are provided to contractors for two purposes -- to cover the cost of
mobilization and for cash flow support. The second of the two purposes is to enable a
contractor to cover cash flow requirements (i.e., the lag between incurring costs and
getting paid for them) during the early phases of a project. Costs incurred are much
higher and extend beyond the items covered in Bill Item 101: Contractor’s Mobilization
and Site Installation in the Bill of Quantities. For example, the contractor is permitted to
invoice for work completed and measured, as per the Bill of Quantities. There are many
costly activities, such as extracting materials from quarries, crushing aggregates, and
hauling and stockpiling materials, for which the contractor is not paid until the materials
have actually been laid as base and sub base. The activity that triggers payment may
occur several months after costs have been incurred.

Advance payments are an accepted aspect of international contracts. The advance
payment reduces the cost of a contract by removing financing costs from the
construction firm at nominal risk to the employer or owner. Advance payments are
secured against a bank payment guarantee. In addition, the advance payment is
disbursed only after the contractor has provided a performance security as well.
Moreover, the contract provides for amortization of the advance payment against future
invoices for works completed.

Advance payments do not normally require backup as to what they are being expended
for. In fact, the generally accepted international form of construction contract does not
require an accounting of the proceeds of the advance payment made to contractors.
MCC believes it should continue to follow generally accepted industry practice in this
regard.



                                                                                         25
                                                                              APPENDIX III




              Projects as a Result of the Additional Funding




                                            Map provided by Millennium Challenge Georgia Fund

This map shows the projects funded by the additional $100 million. The additional funds
were used to complete works in the Samtskhe-Javakheti Road Rehabilitation Project,
Regional Infrastructure Development (RID) Project, and Energy Infrastructure
Development Projects, contemplated by the original compact.




                                                                                          26
                                                                          APPENDIX IV


                              Map of Road Project
Samtskhe-Javakheti Road Rehabilitation




The Samtskhe-Javakheti Road Rehabilitation Project aims at restoring the road and
transport network in the region. With a total budget of $183.6 million, the project
envisages rehabilitation of the 223.9km road in Kvemo Kartli and Samtskhe-Javakheti
regions. Rehabilitation of roads in Samtskhe-Javakheti and Kvemo Kartli will facilitate
the trade and business development in these regions. The map shows the locations of
those roads, which will expand international trade by providing a direct transport link
from Tbilisi to the Turkish and Armenian borders.

.




                                                                                    27
U.S. Agency for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig

                                            28
